 DEPARTMENT OF HOMELAND SECURITY

 Ofﬁce of Inspector General


        Review of Compliance with
      the Currituck Beach Lighthouse
           Operating License




       Ofﬁce of Audits
OIG-05-08      December 2004
                                                                      Ofﬁce of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Washington, DC 20528




                                              Preface

The Department of Homeland Security (DHS) Ofﬁce of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, investigative, and special reports
prepared by the OIG as part of its DHS oversight responsibility to identify and prevent fraud,
waste, abuse, and mismanagement.

This report assesses the strengths and weaknesses of the program or operation under review. It
is based on interviews with employees and ofﬁcials of relevant agencies and institutions, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to the OIG,
and have been discussed in draft with those responsible for implementation. It is my hope that
this report will result in more effective, efﬁcient, and economical operations. I express my
appreciation to all of those who contributed to the preparation of this report.




                                              Richard L. Skinner
                                              Acting Inspector General
                                                                                                                        Contents



  Introduction.................................................................................................................................... 3


  Results in Brief .............................................................................................................................. 4


  Background ................................................................................................................................... 5


  Detailed Results of Review.......................................................................................................... 10


  Conclusion ................................................................................................................................... 16



Appendices

  Appendix A:            Committee on Government Reform Request ....................................................                            18

  Appendix B:            Government Letter on Instructions on Final Accounting ..................................                               20

  Appendix C:            Purpose, Scope, and Methodology .....................................................................                  22

  Appendix D:            Management Comments.....................................................................................               24

  Appendix E:            Major Contributors To This Report ....................................................................                 25

  Appendix F:            Report Distribution.............................................................................................       26



Abbreviations

  DHS             Department of Homeland Security

  GSA             General Services Administration

  OBC             Outer Banks Conservationists, Incorporated 

  OIG             Ofﬁce of Inspector General

  U.S.            United States




                                                         Currituck Beach Lighthouse                                                             Page 1
                             Tourists atop the Currituck Beach Lighthouse

Source: United States Coast Guard ﬁles



Page 2                                     Currituck Beach Lighthouse
OIG

Department of Homeland Security
Ofﬁce of Inspector General


    Introduction
                                 In June 1990, the Coast Guard issued a license to Outer Banks Conservationists,
                                 Incorporated (OBC) for the non-federal use of the Currituck Beach Lighthouse
                                 (Lighthouse)1 located on the outer banks of North Carolina. The license required
                                 OBC to maintain the Lighthouse tower; acknowledged that the Coast Guard is
                                 responsible for maintaining and operating the automated lantern as an aid to
                                 navigation; allowed OBC to charge an admission fee to the Lighthouse to help
                                 with maintenance, repair, and operating costs; and required OBC to remit excess
                                 revenue to the Coast Guard.

                                 OBC expressly sought permission to use the Lighthouse tower to draw tourists
                                 and tourist dollars to its leased property, which surrounds the Lighthouse. OBC
                                 has leased the adjoining Currituck Beach Lighthouse Reservation (Keepers
                                 Reservation) from the State of North Carolina since 1980. The Keepers
                                 Reservation is comprised of 5.2 acres and contains two houses, which OBC
                                 restored, that were used by keepers of the Lighthouse. The Lighthouse property is
                                 less than an acre and contains the tower.

                                 OBC accumulated revenue from admission fees. Because the admission fees
                                 are program revenue generated from the granted use of federal property, such
                                 fees are public money. OBC reported to the Coast Guard that, starting in 1990,
                                 it charged climbers a $1.50 fee for admission to the Lighthouse, and a $1.50 fee
                                 for admission to the Lightkeepers’ Reservation; subsequently, OBC increased
                                 each fee to $3. The license required OBC to annually submit to the Coast Guard
                                 a certiﬁed statement showing an accounting of operating expenses and revenue.
                                 The license also required a ﬁnal accounting of the revenues and expenses
                                 generated from OBC’s use of the property under the license, and remittance to the
                                 government of any excess revenues not used for allowed purposes.

                                 The General Services Administration (GSA) conveyed the deed to the Lighthouse
                                 to OBC on October 17, 2003, thereby terminating the license.



    1
        License for Non Federal Use of Real Property, number DTCGZ75130-90-RP-037L


                                                       Currituck Beach Lighthouse                           Page 3
                            On September 11, 2003, the Chairman of the U.S. House of Representatives,
                            Government Reform Committee (Committee) presented evidence that suggested
                            that money owed to the Coast Guard had never been remitted and requested OIG
                            to determine how much money OBC owes the Coast Guard under the license.
                            (See Appendix A.) The areas of concern raised by the Committee are summarized
                            in the following three key questions:

                                 1. 	 Was OBC’s practice of accumulating and carrying-over revenues proper?
                                 2. 	 What is the amount of excess revenue owed the government to settle the
                                      license?
                                 3. 	 Did the Coast Guard provide appropriate oversight of the Lighthouse
                                      license?

Results in Brief
                            During the course of the license, OBC properly accumulated and carried over
                            revenues from period to period, allowing it to pursue not only maintenance, but
                            also more capital-intensive restoration and preservation of the Lighthouse. With
                            termination of the license, these accumulated revenues, generated from OBC’s use
                            of the Lighthouse property, became excess revenue inuring to the government.

                            OBC submitted, and the Coast Guard accepted, with adjustments, a ﬁnal
                            accounting of the license revenues and expenses. The Coast Guard determined
                            that the amount of excess revenue owed the government to settle the license was
                            $328,392, of which the Coast Guard allowed OBC to use $220,000 for planned
                            maintenance and restoration of the Lighthouse in lieu of remittance and demanded
                            the balance of $108,392 from OBC2. The OIG agreed with the Coast Guard’s
                            calculation; and while the OIG found no deﬁnitive legal authority permitting OBC
                            to use the $220,000 for the restoration and maintenance contracts it had cancelled,
                            the OIG deemed allowing this proposed expenditure to be equitable considering
                            the facts and circumstances in this matter.

                            The Coast Guard concluded that the primary purpose of the license, i.e., the
                            restoration and preservation of the Lighthouse structure, was accomplished.
                            The license required OBC to assume responsibility for repairs, maintenance,
                            renovations, restoration, and preservation of the Lighthouse and the grounds. The
                            Coast Guard’s inspections of the Lighthouse determined that it was adequately


2
 On November 10, 2004, OBC agreed that the $108,392 held in escrow should be distributed to the U.S. Treasury, and that OBC would
proceed with its planned restoration work.


Page 4	                                            Currituck Beach Lighthouse
                             maintained overall, although conditions found during some inspections raised
                             concerns about the effects of tourists’ foot trafﬁc and triggered closer Coast Guard
                             oversight at times.

                             The Coast Guard’s primary concern was the accomplishment of its aids-to-
                             navigation mission. Therefore, the Coast Guard generally limited its oversight
                             of OBC and Currituck to monitoring the physical condition of the tower and
                             working order of the light. The Coast Guard relied on OBC to comply with the
                             ﬁnancial provisions of the license, with minimal ﬁnancial management oversight.
                             However, prompted by congressional inquiries, the Coast Guard conducted a
                             ﬁnancial management review in July 2003. The Coast Guard’s review of OBC’s
                             ﬁnal accounting report in March 2004 resolved all material discrepancies noted
                             during these reviews and resulted in its approval of OBC’s ﬁnal accounting with
                             exceptions.

                             The Coast Guard reviewed our report and concurred with our ﬁndings. The Coast
                             Guard’s comments to the report are Appendix D.

Background
                             In June 1989 OBC requested permission from the Coast Guard to allow tourists to
                             climb to the top of the Lighthouse. OBC sought this permission to draw tourists
                             to its surrounding property leased from the State of North Carolina. According
                             to OBC’s request, with the draw of climbing the Lighthouse, OBC would then
                             charge tourists an admission fee to the surrounding property, allowing OBC to
                             obtain funding needed to complete restoration of its surrounding property. In
                             subsequent discussions, the Coast Guard indicated that it could only license OBC
                             to use the Lighthouse and collect admission fees for the beneﬁt of the Lighthouse.

                             In June 1990, the U.S. Department of Transportation, through the Coast
                             Guard, issued a license3 to OBC for the non-federal use of the Currituck Beach
                             Lighthouse. The license allowed for an admission fee to generate revenue for
                             maintenance, repair, operation, restoration, and preservation and required the
                             licensee to submit certiﬁed ﬁnancial statements annually. Speciﬁcally, the license
                             required that OBC:

                                  •    protect, maintain, and keep the facilities in working order;



3
    License for Non Federal Use of Real Property, number DTCGZ75130-90-RP-037L


                                                   Currituck Beach Lighthouse                             Page 5
                                    • 	 obtain prior approval for any additions or alterations to the structures;
                                        and
                                    • 	 annually submit a certiﬁed statement showing a breakdown of operating
                                        expenses and revenue.

                              The license authorized OBC to open a museum gift shop at the base of the tower
                              and to charge an admission fee to the Lighthouse. The license limited OBC’s
                              use of the property to the restoration and preservation of the property and its
                              structures.

                              Since 1980, OBC has leased the Currituck Beach Lighthouse Reservation
                              (Keepers Reservation) from the State of North Carolina. The Keepers
                              Reservation is comprised of 5.2 acres surrounding the Lighthouse and contains
                              two houses that were used by keepers of the Currituck Beach Light. Both
                              keepers’ houses were restored by OBC. One keepers’ house is not open to the
                              public. The other is used as a museum gift shop. The keepers’ houses are shown
                              in the photo on the next page taken from atop the Lighthouse.

                              OBC and the County of Currituck, North Carolina, in which the Lighthouse is
                              located, both applied in February 2003 for ownership of the historic structure
                              under the National Historic Lighthouse Preservation Act.4 On April 4, 2003,
                              the Department of the Interior selected OBC’s proposal for ownership of the
                              Lighthouse. OBC’s stewardship of the Lighthouse and the surrounding Keepers
                              Reservation was the primary reason cited for the Department of Interior’s decision
                              to award the deed to OBC.5 The County of Currituck appealed the decision.
                              However, the Department of the Interior upheld its decision on July 30, 2003,
                              awarding the Lighthouse to OBC.

                              The GSA conveyed the deed for the Currituck Lighthouse property to OBC on
                              October 17, 2003, thereby terminating the license. OBC assumed responsibility
                              for maintaining the tower as an historic landmark according to historical
                              preservation standards, while the Coast Guard retained responsibility for
                              maintaining the automated lantern as an aid to navigation. The Coast Guard

4
  On October 24, 2000, the National Historic Lighthouse Preservation Act of 2000, Public Law 106-355, amended the National Historic
Preservation Act for the purposes of establishing a national historic lighthouse preservation program. The National Historic Lighthouse
Preservation
the Coast Guard identiﬁes for disposal as excess property. Eligible entities are: any federal agency, the state or local government of the
community in which the historic light station is located, and any nonproﬁt corporation, educational agency, or community development
organization that has agreed to comply with certain historic preservation and public access conditions and is ﬁnancially able to maintain the
historic light station.
5
  Assistant Secretary for Fish and Wildlife and Parks, United States Department of the Interior, decision memorandum on disposition of the
Currituck Beach Lighthouse of July 30, 2003.


Page 6	                                                Currituck Beach Lighthouse
              The surrounding Keepers Reservation as seen from atop the Lighthouse

Source: United States Coast Guard ﬁles

                       continues to operate the lantern providing a reference point for mariners
                       navigating Currituck Sound or the Atlantic Ocean.


                           Coast Guard’s July 2003 Compliance Review

                       The Coast Guard, in response to congressional inquiries, planned and conducted
                       a limited scope review of OBC’s compliance with the license. In July 2003, the
                       Coast Guard issued a report on its review of OBC’s Lighthouse operations, basic
                       business processes, revenues, and expenses.




                                         Currituck Beach Lighthouse                                Page 7
                         While generally ﬁnding that OBC complied with the Coast Guard license
                         agreement, the review disclosed a number of discrepancies, including:

                              • 	 OBC used the property for fund-raising for the Corolla Wild Horse Fund,
                                  as well as other OBC operations.
                              • 	 OBC held the Lighthouse admissions receipts in interest-bearing
                                  accounts and accrued interest revenue, but did not report the interest in
                                  its annual ﬁnancial statements.

                         The Coast Guard’s report noted that only half the admission revenues OBC
                         collected were considered as Lighthouse revenues and attributed this to the
                         collection of admission fees for the adjoining Lightkeepers Reservation that
                         OBC leases from the State of North Carolina. The report recommended that the
                         Coast Guard send a letter to OBC approving OBC’s practice of collecting fees
                         for both the Lightkeepers Reservation and the Lighthouse at the entrance to the
                         Lighthouse. Also, the report recommended that the letter direct OBC to change
                         entrance signs, shown in the photo below, to specify that two admission fees are
                         collected, and either remove or request approval for an unauthorized wishing
                         well being used by OBC to collect donations to OBC’s Corolla Wild Horse fund.
                         Finally, the report recommended that future licenses be written with more speciﬁc
                         and deﬁned terms. Although the Coast Guard provided OBC with a copy of its
                         report, it did not send the recommended letter.




               The Coast Guard recommended in its July 2003 compliance review report that
                 OBC change this sign to specify two admission fees were being collected

Source: United States Coast Guard ﬁles

Page 8	                                     Currituck Beach Lighthouse
                                 Government Instructions for Final Accounting

                            In response to a request for guidance from OBC’s accounting ﬁrm,6 the GSA,
                            the Coast Guard, the OIG, and the National Park Service sent a letter to OBC on
                            January 9, 2004. (See Appendix B.) The letter advised OBC that:

                                  • 	 The intent of the federal government is for OBC to conduct a ﬁnal
                                      accounting and submit a ﬁnancial statement reporting all Lighthouse
                                      revenues and expenses.
                                  • 	 The ﬁnal accounting should include the ﬁnancial transactions related
                                      to the Lighthouse operations conducted during the period of the license
                                      from July 1, 1990, through October 17, 2003. At a minimum, the
                                      ﬁnancial statement should report:
                                      1) All revenues OBC generated from its use of the Lighthouse, including
                                          but not limited to one-half of the admission fees; and the federal
                                          government’s share of wishing well revenues, Lighthouse donations,
                                          and interest income, over the course of the license. The ﬁnal
                                          accounting should describe the methodology used to determine the
                                          amount of wishing well revenues, Lighthouse donations, and interest
                                          income due the federal government.
                                      2) All restoration expenses OBC incurred during the period of the
                                          license, to include expenditures incurred for preserving, restoring,
                                          maintaining, repairing, and renovating the Lighthouse.
                                      3) All operating expenses OBC incurred during the period of the license
                                          for the purposes of the license, to include expenses for managing the
                                          preservation, restoration, maintenance, repair, and renovation of the
                                          Lighthouse and expenses for managing and operating the Lighthouse
                                          as a public museum and archive.
                                      4) The amount of revenue in excess of expenses, as determined by
                                          subtracting restoration and operating expenses from the revenues.
                                  • 	 A principal ofﬁcer of OBC, or a public accounting ﬁrm should OBC
                                      so desire, must certify that the ﬁnancial statement fairly presents in
                                      all material respects the results of operations of the Lighthouse for the
                                      period of the license.




6
  Letter of November 12, 2003, from Maddison, Caison, & Ogburn, LLP to the National Park Service, the United States Coast Guard, the
Department of Homeland Security’s Ofﬁce of Inspector General, and the General Services Administration regarding the conduct of a ﬁnal
accounting for the Currituck Beach Lighthouse.


                                                    Currituck Beach Lighthouse 	                                              Page 9
Detailed Results of Review
                             Was OBC’s Practice of Accumulating and Carrying-Over
                             Revenues Proper?

                             OBC’s accumulating and carrying-over revenues from one annual period to
                             the next was proper and compliant with applicable Coast Guard policies and
                             procedures.7 OBC accumulated more revenues every year than were required for
                             routine repair and maintenance of the Lighthouse, and held accumulated revenues
                             for capital-intensive restoration needs. OBC accumulated excess revenues
                             over more than one year, which allowed funding of more expensive restoration
                             and preservation work to be pursued. For example, in the ﬁscal year ending
                             June 2000 OBC spent about $454,000 on restoration and rehabilitation of the
                             Lighthouse, while collecting only about $403,000 in total admissions and relying
                             on cash reserves from prior years’ operations.

                             The Coast Guard approved this practice, which we deem not only reasonable, but
                             also consistent with the license, federal regulations, and established Coast Guard
                             policies and procedures in effect at the time. The license required the payment to
                             the Coast Guard of revenue in excess of expenditures but did not mandate annual
                             remittance. Under the Coast Guard’s policies and procedures for the outgranting
                             of historical lighthouse properties, the Coast Guard either issued a long-term
                             license or a short-term lease:

                                  • 	 Long-term licenses were to be issued for non-proﬁts willing to assume
                                      responsibility for care of the lighthouse. Such was the case with the
                                      Currituck license to OBC.
                                  • 	 Alternatively, short-term leases could be issued competitively to anyone
                                      willing to pay market rent. However, Coast Guard policy, citing
                                      appropriation law, precluded care of the lighthouse being accepted in
                                      lieu of rents. Therefore, responsibility and expenses for care of a leased
                                      lighthouse remained with the Coast Guard.

                             Under the Currituck license, OBC assumed responsibility for the care of the
                             Lighthouse. Therefore, the Coast Guard’s use of provisions authorizing admission
                             fees to fund care of the lighthouse in the license was appropriately made and
                             OBC’s practice of carrying-over revenues was proper. Further, carrying-over
                             program income across ﬁscal periods may be prudent, if not necessary, to

7
    Real Property Asset Management Manual, Commandant Instruction M11011.9B, dated 18 October 1988.



Page 10	                                           Currituck Beach Lighthouse
accomplish program goals requiring capital investment. Such was the case with
the Currituck license to OBC.

What is the Amount of Excess Revenues Owed the Government to
Settle the License?

On March 4, 2004, OBC provided a ﬁnal accounting for the license reporting
excess revenue of $187,908 as calculated based on the government’s instructions.
On September 22, 2004, the Coast Guard determined that the amount of excess
revenue owed the government to settle the license was $328,392. The OIG
agreed with the Coast Guard’s calculation. The Coast Guard allowed OBC to use
$220,000 of this amount for planned restoration and maintenance work on the
Lighthouse in lieu of remittance and has demanded the balance of $108,392 from
OBC. While the OIG found no deﬁnitive legal authority permitting OBC to use
the $220,000 for the restoration and maintenance contracts it had cancelled, the
OIG deemed allowing this proposed expenditure to be equitable considering the
facts and circumstances in this matter.


   The Coast Guard Accepted OBC’s Final Accounting Report With
   Exceptions

The Coast Guard’s excess revenue calculation is based on its decision to accept
OBC’s ﬁnal accounting for the license, with exceptions. The Coast Guard’s
analysis identiﬁed, and adjusted for, $162,493 of unallowable professional fees
and expenses that OBC reported, raising the calculated amount of excesses
revenue to $350,401. The Coast Guard also identiﬁed, and adjusted for, $22,009
of closeout costs that OBC incurred preparing the ﬁnal accounting after the period
of the license, lowering the calculated amount of excesses revenue to $328,392.

The Coast Guard’s determination also allowed OBC to use $220,000 for planned
maintenance and restoration of the Lighthouse in lieu of remittance. The
Coast Guard made this allowance as an equitable adjustment pertaining to two
restoration and maintenance contracts that OBC had cancelled at the end of the
license. In its ﬁnal accounting report OBC requested the government recognize
the continuing bona ﬁde need for the work to have been performed under the
contracts and circumstances of the cancellations and consider these allowances.
We reviewed the Coast Guard’s proposed allowance and we found no deﬁnitive
legal authority permitting OBC to use the $220,000 for the restoration and
maintenance contracts that it had cancelled. Nevertheless, allowing this proposed


                  Currituck Beach Lighthouse                               Page 11
                              expenditure appears equitable considering the facts and circumstances in this
                              matter.

                              Further, the Coast Guard’s acceptance of OBC’s ﬁnal accounting reasonably
                              resolved issues addressed in its July 2003 compliance review report that were
                              raised as concerns in the Committee’s request.8 These issues center on revenue
                              reporting, including admission charges, interest earnings, and revenues resulting
                              from other uses of the Lighthouse, as discussed below.


                                   Reporting of Revenues From Admissions Charges

                              The Coast Guard accepted OBC’s reporting of admission charges. OBC told the
                              Coast Guard in 1990 that it charged both a fee for admission to the Lighthouse of
                              $1.50 and a fee for admission to the Lightkeepers Reservation of $1.50. The fees
                              were raised through the years to $3 and $3. The two fees were described in OBC
                              correspondence to the Coast Guard. While the charges initially consisted of both
                              a Lighthouse admission fee and a Lightkeepers Reservation fee, OBC began to
                              collect a conservation program donation in later years in lieu of the Lightkeepers
                              Reservation fee after the keepers’ house had been rehabilitated. Coast Guard
                              ofﬁcials said they did not object to this change because it did not affect the
                              lighthouse fee. The Coast Guard had approved the collection, at the lighthouse, of
                              a second admission charge by OBC as part of a cost savings initiative. The Coast
                              Guard does not consider the resulting funds from the second admission fee as
                              miscellaneous receipts or government property.

                              In its annual ﬁnancial statements OBC reported the amount of the Lighthouse
                              admission fees collected, but did not report the total amount of admission charges
                              collected or the Lightkeepers’ Reservation admission fees or the conservation
                              program donation. OBC’s reporting only the Lighthouse admission fee reﬂected
                              an oral agreement reached with the Coast Guard in 1990. This agreement allowed
                              OBC to consolidate three functions at the base of the lighthouse: collecting
                              admission fees for the Lighthouse; collecting admission fees for the surrounding
                              OBC property, i.e. the Lightkeepers Reservation; and gate keeping. The Coast
                              Guard approved the arrangement since consolidating these activities would reduce
                              salary costs allowing more revenue for restoration. The Coast Guard’s July 2003
                              compliance review of the license acknowledged this agreement. Nevertheless, the



8
    See Appendix A for the Committee on Government Reform’s request letter.



Page 12                                              Currituck Beach Lighthouse
more than $1.4 million OBC collected through the conservation donation has been
a source of controversy, as reﬂected in the Committee’s request.


   Reporting of Interest Earnings and Revenues Resulting From Other Uses
   of the Lighthouse

The Coast Guard accepted OBC’s ﬁnal accounting for other revenues. The ﬁnal
accounting resolved issues raised in the Coast Guard’s July 2003 compliance
review, which noted omissions in reporting of other revenues generated by
OBC from its use of the Lighthouse. In its annual statements, OBC understated
revenues by omitting interest earned on accumulated revenues and not disclosing
the other revenues OBC collected by unauthorized uses of the lighthouse, such
as wishing well donations and sponsorship solicitations. However, in its ﬁnal
accounting OBC reported $48,355 in interest earnings and $10,054 in wishing
well donations.

The Coast Guard’s July 2003 compliance review also noted that onsite solicitation
of sponsorship donations, which offered donors multiple free Lighthouse
admissions, appeared to function as a volume discount for admission fees.
Therefore, when a donor climbed the Lighthouse as a sponsor without paying an
admission fee, the Coast Guard suggested OBC should account for the price of
an admission as Lighthouse revenue. The Coast Guard’s July 2003 compliance
review recommended changes in recordkeeping to capture these transactions.
However, lacking sufﬁcient data, OBC was unable to determine the amount of
Lighthouse revenue from sponsorship solicitations. As the Coast Guard estimated
the amount, over the 13 years of the license, was under $12,000, it concluded the
omission was not a material discrepancy.

   Reporting of Expenses

The Coast Guard accepted OBC’s ﬁnal accounting for expenses, with exceptions.
The Coast Guard accepted and approved OBC’s ﬁnal accounting for restoration
expenses, which were consistent with the results of the Coast Guard’s July 2003
compliance review. During the compliance review, the Coast Guard examined the
accounting for restoration expenses and found no material discrepancies.

However, the Coast Guard challenged the substantial increase in operating
expenses in recent periods during the July 2003 compliance review, upon receipt
of the last annual ﬁnancial statements, and in its review of OBC’s ﬁnal accounting



                  Currituck Beach Lighthouse                               Page 13
          report. The Coast Guard found that OBC had included $162,493 in certain
          operating expenses, such as professional fees and expenses, which OBC incurred
          pursuant to its efforts to acquire the lighthouse, but which were unrelated to the
          license requirements. Therefore, the Coast Guard adjusted its excess revenue
          calculation, disallowing $162,493 of $1,247,133 in operating expenses.

          During its compliance review, the Coast Guard conducted limited testing of
          OBC’s accounting for other expenses and found only minor discrepancies. For
          a judgmentally selected sample, the Coast Guard found OBC generally valued,
          classiﬁed, recorded, and documented the expense transactions correctly. Further,
          during its review of OBC’s ﬁnal accounting report, the Coast Guard found that
          the disallowed professional fees and expenses were valued, classiﬁed, recorded,
          and documented correctly. We note that OBC readily disclosed and accounted for
          professional fees and expenses transactions, including those that were disallowed
          as license expenses. OIG concluded that the Coast Guard’s acceptance of OBC’s
          reporting of expenses, with the noted adjustments for disallowed operating
          expenses, was reasonable.


          Did the Coast Guard Provide Appropriate Oversight of the
          Lighthouse License?

          The Coast Guard appropriately focused its oversight of the Lighthouse and the
          license on inspecting the physical condition of the tower and working order of the
          light and performed periodic inspections. However, the Coast Guard was lax in
          enforcing license provisions requiring annual ﬁnancial statements to be certiﬁed,
          forgoing the assurance that certiﬁcation could have provided.

             Coast Guard Inspections

          The Coast Guard’s primary concern in its inspections and oversight of the
          Lighthouse was to ensure that its aids-to-navigation mission was accomplished.
          For example, during the license period, the Coast Guard upgraded the electrical
          system for the Lighthouse. However, when the Coast Guard did not timely
          repair windows on the lantern level, OBC made the needed repairs and ensured
          the results met historical preservation standards. The Coast Guard continues
          to maintain and operate the lantern providing a reference point for mariners
          navigating Currituck Sound or the Atlantic Ocean.




Page 14                     Currituck Beach Lighthouse
The Coast Guard’s inspections of the Lighthouse determined that it was
adequately maintained. Structural engineers’ assessments conducted in 1989, just
prior to the license, and in 2002 show the light tower was sound, and may have
improved under OBC’s care, as a result of capital investments.

Inspection records also show that the material condition of the Lighthouse varied
over the course of the license. For example, when the Coast Guard found that
OBC’s opening of the Lighthouse to tourists resulted in heavier foot trafﬁc than
designed and had unintended adverse consequences placing the integrity of the
structure at risk, the Coast Guard and OBC took measures to ensure the safety of
the tower and the climbers. In 1992, the Coast Guard’s inspections found that:

    • 	 OBC was allowing more tourists in the tower than the stairs could safely
        handle;
    • 	 The stress of the shifting foot trafﬁc was adversely affecting the wrought
        iron stairs and the tower; and
    • 	 The tourist climbing operation was a safety risk to the public.

With similar ﬁndings in 1993, the Coast Guard instructed OBC to limit the
number of tourists in the tower at one time and pressed OBC on conducting
structural engineering assessments, which led to OBC’s measures to strengthen
the staircase supports. Additionally, the Coast Guard directed OBC to more
clearly warn the public of the risks, including clear statements on every page of
the registry and requiring all persons, regardless of pay status, to sign the registry
before climbing.


   Financial Oversight

The Coast Guard deemed ﬁnancial oversight of the out-granted Lighthouses to
be a lower priority than oversight of aids-to-navigation mission performance.
Inspectors were civil engineers or Aids-to-Navigation Teams, not accountants.
Instead, the Coast Guard required annual ﬁnancial reporting that allowed for
monitoring of the Lighthouses’ ﬁnancial management. Additionally, the Coast
Guard had included a license provision requiring those annual reports to be
certiﬁed, which should have provided greater assurance of full and accurate
reporting.

However, while the license speciﬁcally required the annual statements to be
certiﬁed, the Coast Guard was lax in enforcing this provision. During the



                   Currituck Beach Lighthouse 	                                Page 15
             license period, OBC did not comply with and the Coast Guard did not enforce
             this provision. None of the 13 annual statements submitted by OBC’s public
             accounting ﬁrm were certiﬁed by either the accountant or OBC management.
             All of the 13 annual submissions from OBC’s public accounting ﬁrm contained
             a disclaiming statement that the information in the ﬁnancial report was given to
             the accounting ﬁrm by OBC and was unaudited. Two of the 13 annual ﬁnancial
             reports were unsigned. The Coast Guard accepted the 13 ﬁnancial statements
             without challenge and did not question the lack of certiﬁcation.

             However, in July 2003, in response to congressional inquiries, the Coast Guard
             conducted a review of OBC’s ﬁnancial reporting as part of a limited compliance
             review. The Coast Guard found that OBC was properly accounting for repair,
             maintenance, and restoration expenses and admissions revenue, but not other
             revenues. The Coast Guard’s compliance review identiﬁed unauthorized and
             unreported uses of the Lighthouse and resulting revenues, such as wishing well
             collections and onsite sponsorship donations that appeared to function as a
             volume discount on lighthouse admissions. The Coast Guard considered revenue
             generated from these unauthorized operations as inuring to the Coast Guard.

             OBC management certiﬁed the ﬁnal accounting report of March 4, 2004,
             which included interest and revenue from the wishing well. The Coast Guard’s
             determination on OBC’s ﬁnal accounting report accepted OBC’s calculation of
             excess revenues.

Conclusion
             The OIG and the Coast Guard found areas of non-compliance by OBC with the
             terms of the license. Although the Coast Guard did not enforce compliance with
             the license relative to the certiﬁcation of annual reports or amend the license to
             incorporate the oral agreement to consolidate the collection of fees, it concluded
             that OBC was substantially compliant with the license. The Coast Guard did not
             ﬁnd the points of non-compliance material and asserted that the deviations from
             the letter of the license, while not formally agreed to in advance, were reasonable.
             Further, after the January 9, 2004, letter to OBC resolved the requirements for the
             ﬁnal accounting for the Lighthouse, the Coast Guard accepted much of OBC’s
             ensuing report, made adjustments and allowances for expenses, and determined
             the amount of excess revenue to be $328,392. OIG agreed with the Coast Guard’s
             determination.




Page 16                         Currituck Beach Lighthouse
We limited our review to the now-terminated Currituck Beach Lighthouse
license. Accordingly, we are not making recommendations to the Coast Guard for
improving the management and oversight of other lighthouses licensed under this
program.

Management Comments. The Coast Guard concurred with our ﬁndings. The
Coast Guard’s written response to the report is contained in Appendix D.




                 Currituck Beach Lighthouse                             Page 17
Appendix A
Committee On Government Reform Letter




Page 18                            Currituck Beach Lighthouse
                       Appendix A
                       Committee On Government Reform Letter




Currituck Beach Lighthouse                           Page 19

Appendix B
Government Letter on Instructions on Final Accounting




Page 20                                Currituck Beach Lighthouse
      Appendix B
      Government Letter on Instructions on Final Accounting




Currituck Beach Lighthouse                            Page 21

Appendix C
Purpose, Scope, and Methodology



Purpose, Scope, and Methodology
                               On September 11, 2003, the Chairman of the U.S. House of Representatives,
                               Government Reform Committee9 (Committee) presented evidence that suggested
                               that money owed to the Coast Guard has never been remitted and requested
                               OIG to determine how much money OBC owes the Coast Guard under the
                               license. To accomplish this objective, we determined whether OBC’s practice of
                               accumulating and carrying-over revenues was proper and what was the amount
                               of excess revenue owed the government to settle the license. To address the
                               Committee’s concerns we also determined whether the Coast Guard provided
                               appropriate oversight of the Lighthouse license. We limited this review to the
                               Currituck Beach Lighthouse license.

                               We assessed OBC’s compliance with the terms of the license. We interviewed
                               OBC and Coast Guard ofﬁcials. We reviewed license ﬁles, compliance review
                               team working papers, and inspection reports obtained from the Coast Guard. We
                               interviewed, held discussions with, and reviewed documents from ofﬁcials of the
                               General Services Administration, the National Park Service, and the County of
                               Currituck.

                               We evaluated OBC’s practices regarding accumulating and carrying-over
                               revenues. We ascertained OBC’s practices, including historical practices on
                               remitting excess revenues, by reviewing Coast Guard’s ﬁles and interviewing
                               OBC and Coast Guard ofﬁcials. In evaluating these practices, we applied criteria
                               we developed through research of Coast Guard policies and procedures and
                               federal regulations.

                               We evaluated OBC’s reporting of Lighthouse revenues and expenses, by
                               identifying instructions provided to OBC as shown in the Coast Guard’s ﬁles
                               and disclosed from discussions with Coast Guard ofﬁcials and applying criteria
                               we developed through research of license provisions, federal regulations, and
                               Generally Accepted Accounting Principles.

                               We reviewed and monitored the Coast Guard’s determination of the amount
                               of excess revenue owed the government to settle the license. We assessed
                               the reasonableness of the assumptions, risks, and results of the Coast Guard’s
                               analysis. We reviewed reports and information provided by OBC. We reviewed
                               the Coast Guard’s ﬁles and discussed the process and preliminary results of the


9
    A copy of the letter from the Government Reform Committee is Appendix A of this report.


Page 22                                                Currituck Beach Lighthouse
                                               Appendix C
                                               Purpose, Scope, and Methodology



Coast Guard’s review with Coast Guard ofﬁcials. We identiﬁed from Coast Guard
documents the amount of excess revenue demanded from OBC.

We evaluated the Coast Guard’s oversight of the Lighthouse license by identifying
the Coast Guard’s practices from reviewing the Coast Guard’s ﬁles and
discussions with Coast Guard ofﬁcials and applying criteria we developed through
research of Coast Guard policies and procedures and federal regulations. We
discussed the application of federal regulations with the Ofﬁce of Management
and Budget. We identiﬁed circumstances related to administration of historical
lighthouse outgrants from discussions with Coast Guard, Department of Interior,
and General Services Administration ofﬁcials and review of Coast Guard,
Department of Transportation, Department of Interior, and General Services
Administration documents.

Throughout the review, the OIG team worked closely with Coast Guard ofﬁcials.
We greatly appreciate the cooperation and courtesy extended by the Coast Guard,
General Services Administration, Department of Interior, OBC, and OBC’s
accountants during the course of our review. Appendix 5 lists the major OIG
contributors. For additional information about the review the principal OIG
points of contact are Mr. J. Richard Berman, Assistant Inspector General for
Audits, at (202) 254-4100 and Ms. Tamara Faulkner, Congressional Liaison at
(202) 254-4100.




                  Currituck Beach Lighthouse                             Page 23
Appendix D
Management Comments




Page 24               Currituck Beach Lighthouse
                                                            Appendix E
                                                            Major Contributors to this Report



Major Contributors to This Report
              J. Richard Berman, Assistant Inspector General for Audits
              Richard Reback, Counsel to the Inspector General
              Edward M. Stulginsky, Deputy Assistant Inspector General for Audits
              Phillip J. Maulden, Project Manager
              Richard Doery, Attorney




                               Currituck Beach Lighthouse                            Page 25
Appendix F
Report Distribution



                      Outer Banks Conservationists, Inc.


                      Department of Homeland Security
                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      General Counsel
                      Chief Security Ofﬁcer
                      DHS OIG Liaison
                      United States Coast Guard


                      Other Executive Agencies
                      U.S. Department of the Interior
                      General Services Administration


                      Ofﬁce of Management and Budget
                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner


                      Congress
                      Committee on Government Reform, U.S. House of Representatives




Page 26                                  Currituck Beach Lighthouse
Additional Information and Copies

To obtain additional copies of this report, call the Ofﬁce of Inspector General (OIG)
at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603; write to Department of Homeland Security, Washington, DC
20528, Attn: Ofﬁce of Inspector General, Investigations Division – Hotline. The OIG
seeks to protect the identity of each writer and caller.
